                                                      IG-02-011




AUDIT
                             INTERNATIONAL SPACE STATION
REPORT                            SPARE PARTS COSTS

                                     March 22, 2002




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

       Assistant Inspector General for Audits
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

DCAA       Defense Contract Audit Agency
FAR        Federal Acquisition Regulation
FY         Fiscal Year
ISS        International Space Station
NMI        NASA Management Instruction
NPG        NASA Procedures and Guidelines
OIG        Office of Inspector General
OMB        Office of Management and Budget
PIO        Provisioning Item Order
PP&E       Property, Plant, and Equipment
                                          March 22, 2002
W


TO:              A/Administrator

FROM:            W/Counsel to the Inspector General

SUBJECT:         INFORMATION: Audit of International Space Station Spare Parts Costs
                 Report Number IG-02-011

The NASA Office of Inspector General has completed an audit of International Space
Station (ISS) Spare Parts Costs. We found that NASA generally did not properly acquire
and account for ISS spare parts. Although NASA properly justified and approved
noncompetitive contract modifications, it did not negotiate for separately priced spare
parts or develop a pricing history for use in purchasing additional spare parts. As a
result, NASA had no assurance that the prices it paid were fair and reasonable for the
$334 million spent on ISS spare parts through fiscal year (FY) 2000 and may not be able
to cost-effectively and competitively procure about $608 million in future ISS spare
parts.1 Additionally, we found that The Boeing Company (Boeing) omitted contractor fee
and indirect costs from the value of spare parts recorded on receiving reports it submitted
to Johnson Space Center (Johnson). As a result, the Agency cumulatively understated in
its annual financial statements the value of ISS spare parts by about $39 million from
Program inception (FY 1995) through FY 2000.

Background

The Agency budgeted $831 million to acquire ISS spare parts through FY 2007. Johnson
used noncompetitive contract modifications to issue provisioning item orders (PIO's) to
acquire groups of line item spare parts from Boeing. The ISS contract stipulates that
each deliverable item (line item spare part) should be priced and substantiated separately
within the contractor's proposal. Further, Federal regulations require the Agency to pay
fair and reasonable prices for ISS spare parts.




1
 The $608 million requirement was based on a seven-person crew. The current ISS core complete is based
on a budget-limited three-person crew. Ultimately, the requirement may again be based on a seven-person
crew.
                                                                                                               2

The ISS contract incorporates the requirements of NASA Management Instruction
(NMI) 5900.1B, "NASA Spare Parts Acquisition Policy," February 3, 1993,2 which
established Agency policy to ensure NASA spare parts are acquired at the lowest fair and
reasonable cost. The NMI states that, if possible, each order should be on a firm
fixed-price basis with individual items separately priced to provide a pricing history for
later purchases.

Boeing prepares the official ISS property records that include a value for spare parts.
NASA uses these property records to establish the value of ISS property in its annual
financial statements. Federal accounting standards and Agency regulation require that
the unit value for property shall reflect total costs including applicable fees and indirect
costs.

Recommendations

We recommended that Johnson require Boeing to propose, negotiate, track, and report
individual prices for ISS spare parts and establish price histories. These actions will
ensure NASA knows the prices it is paying for ISS spare parts. We also recommended
that Johnson ensure Boeing includes contractor fee and indirect costs in the value of ISS
spare parts recorded in the official property records. This action will help ensure that
property records show all applicable costs and fees and that NASA reports the correct
value for ISS spare parts in its annual financial statements. We further recommended that
the Assistant Administrator for Procurement reestablish Agency procedures for acquiring
spare parts and that the NASA Chief Engineer reference the procedures in the next
revision of the NASA Procedures and Guidelines (NPG) 7120.5A, “NASA Program and
Project Management Processes and Requirements” dated April 3, 1998. These actions
will ensure the Agency has a uniform policy for future acquisitions of spare parts to
support NASA's major systems.

Management's Response

Johnson concurred with the recommendations to require Boeing to propose and negotiate
individual prices for spare parts and to include fee and indirect costs of spare parts on
receiving reports submitted to NASA. Johnson did not concur with the recommendation
to track and report individual prices for ISS spare parts. However, in subsequent
discussions with us, the ISS Procurement Officer agreed to use the receiving reports to
track prices and establish price histories for batteries3 and other high-dollar value spare


2
  Although the NMI was subsequently cancelled, it was still in effect at contract initiation in January 1995
(see "Need for Guidance on Spare Parts Acquisition" in the finding section of this report).
3
  The nickel-hydrogen batteries cost NASA about $3.3 million each. The ISS is designed to operate with
48 batteries. Additional details are in Finding A.
                                                                                         3

parts. NASA concurred with the recommendations to reestablish procedures for
acquiring NASA spare parts and to reference the procedures in the next revision of
NPG 7120.5A.

OIG Evaluation of Management's Response

Management’s comments and planned actions are responsive to the recommendations.
Details on the status of the recommendations are in the recommendations section of the
report.



[original signed by]
Francis P. LaRocca

Enclosure
Final Report on Audit of International Space Station Spare Parts Costs
INTERNATIONAL SPACE STATION
     SPARE PARTS COSTS
                                     March 22, 2002
W


TO:            AE/Chief Engineer
               H/Assistant Administrator for Procurement
               M/Associate Administrator for Space Flight
               AA/Acting Director, Lyndon B. Johnson Space Center

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on the Audit of International Space Station Spare Parts Costs
               Assignment Number A-01-009-00
               Report Number IG-02-011


The subject final report is provided for your information and use. Please refer to the
Executive Summary for the overall audit results. Our evaluation of your response has
been incorporated into the body of the report. We consider management’s proposed
corrective actions responsive for recommendations 1 through 5. The recommendations
will remain open for reporting purposes until corrective action is completed. Please
notify us when actions have been completed on the recommendations, including the
extent of testing performed to ensure corrective actions are effective. The final report
distribution is in Appendix G.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Mr. Dennis E. Coldren, Program Director, Space
Flight Audits, at (281) 483-4773, or Mr. Kenneth Sidney, Auditor-in-Charge, at
(281) 483-0728.



[original signed by]
Alan J. Lamoreaux

Enclosure
                                                     2

cc:
AI/Associate Deputy Administrator
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
Contents
Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. Acquisition of Spare Parts, 2

     Finding B. Accounting for Spare Parts Costs, 7

Appendix A – Objectives, Scope, and Methodology, 10

Appendix B – International Space Station Contract, 11

Appendix C – Procurement Requirements, 13

Appendix D – Prior Audits and Other Reviews, 17

Appendix E – Management’s Response, 19

Appendix F – OIG Comments on Management’s Response, 25

Appendix G – Report Distribution, 26
                                NASA Office of Inspector General
IG-02-011                                                                               March 22, 2002
 A-01-009-00

                       International Space Station Spare Parts Costs

                                          Executive Summary
Background. In January 1995, Johnson signed a $5.638 billion cost-reimbursable contract with
Boeing for the ISS. As of February 2002, the contract value was $10.8 billion. The contract
includes the design, development, manufacture, integration, test, verification, and delivery to
NASA of the U.S. on-orbit segment of the ISS, including ground support equipment and support
for ground and orbital operations. (Appendix B contains overall contract details.) Johnson is
acquiring ISS prime spare parts4 through noncompetitive contract modifications. Johnson
estimated ISS prime spare parts would cost $831 million through FY 2007 and spent
$334 million through FY 2000. NASA will likely purchase an additional $608 million in spare
parts over the life of the ISS.

Objectives. The overall objective was to determine whether NASA properly acquired and
accounted for ISS spare parts. Specifically, we determined whether NASA appropriately
justified and approved the acquisition of ISS spare parts through noncompetitive contract
modifications, paid a fair and reasonable price for the spare parts, and adequately supported the
value of the spare parts inventory that the Agency reported in its annual financial statements.
Appendix A contains a detailed description of our objectives, scope, and methodology.

Results of Audit. NASA generally did not properly acquire and account for ISS spare parts.
Although NASA properly justified and approved noncompetitive contract modifications, it did
not negotiate for separately priced spare parts or develop a pricing history for use in purchasing
additional spare parts. As a result, Johnson had no assurance that the prices it paid were fair and
reasonable for the $334 million spent on ISS spare parts and may not be able to cost-effectively
and competitively procure an estimated $608 million in future ISS spare parts (Finding A).
Also, Boeing did not include fee and indirect costs in the value of spare parts it reported to
NASA. Consequently, the Agency's annual financial statements from FY's 1995 through 20005
cumulatively understated the value of spare parts by about $39 million (Finding B).

Recommendations. NASA should require Boeing to properly price and account for ISS spare
parts and should establish procedures for acquiring and provisioning spare parts.




4
  ISS prime spare parts are all the spare parts that Boeing provides NASA under the ISS contract. They can be made
by Boeing, acquired by Boeing from its subcontractors, or furnished by the Government to Boeing.
5
  Using NASA Form 1018, "NASA Property in the Custody of Contractors," Johnson adjusted its official property
records for FY's 1998 through 2000 by adding calculated fees to the year-end balances reported for 4 of the 11
property classification accounts. However, this adjustment did not show the amount of fees that pertained to ISS
spare parts.
Management's Response. Johnson agreed to require Boeing to propose and negotiate
individual prices for spare parts and to record total costs, including fee and indirect costs, of
spare parts on receiving reports submitted to NASA. Johnson did not concur with the
recommendation to track and report individual prices for ISS spare parts. However, in
subsequent discussions with us, the ISS Procurement Officer agreed to use the receiving reports
to track prices and establish price histories for batteries and other high-dollar value spare parts.
NASA concurred with the recommendations to reestablish procedures for acquiring spare parts
and to reference the procedures in the next revision of NPG 7120.5A. Management also
provided general comments on our findings. The complete text of management's response is in
Appendix E.

Evaluation of Management's Response. We consider NASA's comments and planned actions
responsive. Our response to management's general comments on the findings is in Appendix F.




                                                  ii
Introduction
Federal Acquisition Regulation (FAR) 15.402 requires that a contracting officer purchase
supplies and services from responsible sources at fair and reasonable prices. The ISS contract
stipulates that each deliverable item should be priced and substantiated separately within each
proposal. The contract also incorporates the requirements of NMI 5900.1B, "NASA Spare
Parts Acquisition Policy," February 3, 1993. The NMI established a uniform policy for the
acquisition and provisioning of NASA spare parts and for ensuring that the Agency acquires
spare parts in the proper quantities and at the lowest fair and reasonable cost. Also,
NMI 5900.1B stated that, if possible, each order should be on a firm fixed-price basis with
individual items separately priced to provide a pricing history for later spare parts purchases.
(Appendix C contains the procurement requirements.)

The NMI assigned the overall responsibility for the acquisition of NASA spare parts to the
Assistant Administrator for Procurement. The policy delegates the authority for acquiring
spare parts through Center Directors to cognizant contracting officers and assigned the
responsibility for ISS spare parts management to the Associate Administrator for Space
Flight.

Boeing submits to the ISS Contracting Officer a cost proposal for each contract modification
that includes direct cost, indirect cost, and fee for the spare parts listed in the PIO. The
contracting officer obtains field pricing assistance from the Defense Contract Audit Agency
(DCAA)6 and the Defense Contract Management Agency7 to evaluate the proposal and to
establish a pre-negotiation position for the Government. After the contracting officer
evaluates the proposal, NASA and Boeing negotiate a total price for the contract modification
that contains the PIO listing of spare parts. As of January 2001, Johnson had ordered8 about
$633 million in spare parts.




6
  DCAA provides the latest approved or recommended direct labor rates that NASA should use to estimate the
contractor’s direct labor costs. DCAA also provides the latest approved or recommended indirect rates that
NASA should use to estimate indirect costs. Further, DCAA reviews the proposed material costs to ensure that
escalation factors are reasonable and that the items agree with the Government’s bill of material.
7
  Engineers from the Defense Contract Management Agency perform technical evaluations at the
contractor/subcontractor sites and advise NASA on whether the proposed direct labor hours are reasonable.
8
  NASA considers spare parts as ordered when it negotiates a contract modification with Boeing or otherwise
authorizes the contractor to proceed (that is, the Agency issues an undefinitized contract action).
Findings and Recommendations

Finding A. Acquisition of Spare Parts
Johnson did not negotiate separate prices or develop price histories for ISS spare parts. This
occurred because Johnson did not perform those actions required by NMI 5900.1B, which the
ISS contract incorporates by reference. As a result, Johnson did not know the prices, either
individually or by PIO, that it paid Boeing for the $334 million spent on ISS spare parts
through FY 2000 and, therefore, had no assurance the prices were fair and reasonable. Also,
without knowing the prices paid, Johnson could not develop a price history with which to
procure, on a competitive fixed-price basis, an additional $608 million in spare parts that may
be needed over the life of the ISS.

NASA’s Acquisition Strategy and Price Histories

Lifetime Purchases. The ISS Program Office philosophy is that almost all procured spare
parts can and will be repaired. Accordingly, Johnson's acquisition strategy has been to make
lifetime purchases of sufficient spare parts hardware to support ISS performance and to
procure no additional hardware other than for consumables9 and re-procurement10 spare parts.
Johnson calls this process spares acquisition integrated with production. For ISS spare parts
that Boeing delivered to NASA through December 2000, we determined that less than
5 percent of the items ordered were repetitive purchases.11 Although Johnson had generally
implemented its acquisition strategy of making lifetime purchases rather than repetitive
purchases of ISS spare parts, Johnson plans to make additional repetitive purchases in the
future.

Additional Spare Parts Requirements. The ISS Program recognizes that it will spend
considerably more to acquire consumables and re-procurement spare parts for the ISS.
Mainly, the consumables consist of nickel-hydrogen batteries, which cost about $3.3 million
each and are designed to collect and store solar power aboard the ISS. 12 Also, Johnson may
need to acquire re-procurement spare parts to resolve recently identified ISS power system
issues.13 Further, Johnson anticipates that as it accumulates more ISS operational data, the
Program will need additional re-procurement spare parts to address changes in the predicted

9
 Consumables are spare parts, such as batteries and filters, that have a limited shelf life.
10
   Re-procurement spare parts have previously been procured but need to be procured again because the
development hardware did not perform as NASA had predicted it would perform. These additional spare parts
acquisitions relate to the risk of needing more spare parts due to problems such as redesign issues and higher
than anticipated failure rates.
11
   About 4 percent (584 of 15,113) of the unit spare parts and about 4.5 percent (35 of 782) of the line items
spare parts were repetitive purchases.
12
   Spare batteries will be kept on the ground and used to replace batteries that fail prematurely or have reached
their 6-year life expectancy. The ISS is designed to operate with 48 batteries.
13
   NASA anticipates that, due to power system issues, it will need to re-procure two direct current switching units
(three units were originally ordered), three battery charge/discharge units (three units were originally ordered),
one pump module (three units were originally ordered), one photovoltaic radiator (one unit was originally
ordered), one high-resolution spectograph (one unit was originally ordered), and one electronics/environmental
control unit (two units were originally ordered).
                                                          2
failure rates and failure impacts.14 Therefore, in addition to the $831 million Johnson
estimated for known spare parts, the ISS Program Office may spend another $110 million for
re-procurement spare parts through FY 2007. The Program Office also estimated it will
probably spend $300 million for batteries from FY's 2008 through 2017.

Estimated Cost of Spare Parts. ISS spare parts may cost $1.241 billion over the life of the
Program, of which $608 million remains to be ordered as shown below:

                      ISS Program Office’s Estimated Costs of Spare Parts
                                           (Millions)

                     Estimated Cost of Spare Parts Required
                       Through FY 2007                                            $ 831
                     Potential Re-procurements
                       Through FY 2007                                               110
                     Batteries Required (FY's 2008-2017)                             300
                     Total Spare Parts Required                                   $1,241
                     Less:
                       Spare Parts Ordered
                         Through January 2001                                       (633)
                     Estimated Cost of Future Spare Parts                          $ 608

To competitively acquire future spare parts from responsible sources at fair and reasonable
prices that are most advantageous to the Government, Johnson should establish price histories
as required by NMI 5900.1B.

Price Reporting

Proposing, Negotiating, and Reporting Prices. The ISS contract stipulates that each
deliverable item (line item spare part) should be priced and substantiated separately within the
contractor’s proposal. However, Boeing does not propose a price for each spare part listed in
the PIO. Instead, the Boeing production facilities at Canoga Park, California; Huntington
Beach, California; and Huntsville, Alabama, propose their spare parts costs by major cost
elements (that is, direct labor, material, other direct costs, overhead, and general and
administrative expenses). Boeing-Houston, Texas, Boeing's home office, proposes a total
spare parts cost that it adds to each proposal submitted by the Boeing production facilities.
The ISS contracting officer requested that Boeing not propose costs for individual spare parts
because (1) proposing costs for individual spare parts would increase proposal costs to
Johnson and (2) the ISS Program Office did not negotiate prices for individual spare parts.
After the contracting officer completes each proposal evaluation, Johnson and Boeing
negotiate a total price for all of the spare parts in the PIO. Boeing reports cumulative costs
for


14
  Failure rate refers to the number of hardware failures per year requiring removal and replacement on orbit of
the failed hardware items. Failure impact refers to the possibility that NASA will need to make additional spare
parts purchases because the severity of the failure consequences is greater than NASA anticipated.
                                                         3
all spare parts each month on NASA Form 533M, "Monthly Contractor Forecast Report -
Format 4," and on the Performance Measurement System Report.15 However, neither report
identifies the costs for line item spare parts.

Line Item Spare Parts Prices. Boeing does not track and report individual spare parts prices
to the ISS Program Office as NMI 5900.1B required. Consequently, Johnson did not
establish a pricing history for later spare parts purchases. Also, Boeing could charge Johnson
unreasonable prices for individual spare parts even though the total cost of a particular spare
parts order appears reasonable.

Need for Guidance on Spare Parts Acquisition

NASA Cancelled NMI 5900.1B. The NASA Headquarters Procurement Systems Division
issued NMI 5900.1B in February 1993. However, in a February 28, 1996, notice to the
Manager, NASA Directives and Federal Regulations, the Associate Administrator for
Procurement stated that NMI 5900.1B was no longer needed and was cancelled. Since then,
NASA has had no policy on the acquisition and provisioning of spare parts.

NMI 5900.1B applied to the acquisition of spare parts for nonexpendable major systems (such
as the ISS) as defined by the Office of Management and Budget (OMB) Circular A-109,
"Major Systems Acquisitions," April 5, 1976. NASA FAR Supplement Part 1834 states that
NASA's implementation of OMB Circular A-109 is contained in NPG 7120.5A, "NASA
Program and Project Management Processes and Requirements," April 3, 1998. The NASA
Office of the Chief Engineer is responsible for NPG 7120.5A, which provides broad guidance
on program and project management processes and requirements and which incorporates by
reference more specific guidance. The NASA Headquarters Office of Procurement is
responsible for developing specific guidance on spare parts acquisition and originally issued
NMI 5900.1B.

ISS Program Should Follow NMI 5900.1B. NMI 5900.1B was in effect when the Boeing
contract was signed on January 13, 1995, and is incorporated by reference into the ISS prime
contract. Therefore, the ISS Program should follow the instruction and negotiate separate
prices and develop price histories for ISS spare parts to ensure that NASA pays fair and
reasonable prices and competitively procures future ISS spare parts.

Recommendations, Management's Response, and Evaluation of Response
1. The Acting Director, Lyndon B. Johnson Space Center, should require Boeing to
propose, negotiate, track, and report individual prices for ISS spare parts, as required
by the ISS contract including NMI 5900.1B.




15
 NASA requires Boeing to report contract cost and schedule performance each month in the Performance
Measurement System Report. The report provides NASA management with the primary data for determining
current contract cost and schedule performance and the forecast of the estimated cost at completion.
                                                       4
Management's Response. Concur. NASA is now requiring Boeing to negotiate and propose
prices for individual spare parts. Also, management will track and report prices for each
spare part when the actions are cost-effective to the Program.

Evaluation of Response. Management's comments and planned actions are responsive to the
recommendation. The recommendation is resolved but will remain open until agreed-to
corrective actions are completed.

2. The Acting Director, Lyndon B. Johnson Space Center, should direct the ISS
Program Office to track prices paid for ISS spare parts to establish the price histories
needed to facilitate future purchases on a firm fixed-price basis.

Management's Response. Nonconcur. NASA estimated that $119 million of the
$164 million remaining in the spare parts budget through FY 2007 will be spent on batteries.
The remaining $45 million in the budget through FY 2007 is for spare parts reprocurement
(other than batteries) due to changes in the failure rates and other program changes. NASA
will not require Boeing to track prices for the reprocurements because Boeing’s estimated
cost of $4.5 million to track individual prices for the $45 million reprocurement offsets any
cost savings obtained by having a line item price history for uncertain future spare
reprocurements. Also, because of a Program change from a seven-member crew to a
three-member crew, NASA is no longer recognizing a $110 million threat for additional spare
parts reprocurement through FY 2007. Regarding the use of fixed-price contracts for future
spare parts purchases, the ISS Procurement Office will continue to acquire spare parts through
Boeing, the prime contractor and integrator, using the type contract that makes good fiscal
sense. After submission of management's written comments, the ISS Procurement Officer
agreed to use receiving reports from Boeing to track prices and establish price histories for
batteries and other high-cost spare parts.

Evaluation of Response. Management's comments and planned alternative actions are
responsive to the recommendation. We accept Johnson's rationale to not track and report
individual prices for low-dollar value spare parts if it is not cost-effective. However, the
possibility still exists that NASA will spend an additional $110 million for spare parts
reprocurements through FY 2007 because the ISS Program could ultimately require a
seven-member crew. The recommendation is resolved but will remain undispositioned and
open until agreed-to corrective actions are completed.

3. The Assistant Administrator for Procurement should reestablish procedures for
acquiring and provisioning NASA spare parts.

Management's Response. Concur. The NASA Office of Procurement will revise the NASA
FAR Supplement to include appropriate procedures for acquiring and provisioning spare
parts.

Evaluation of Response. Management's planned actions are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective action is completed.

                                               5
4. The NASA Chief Engineer should incorporate by reference in the next revision of
NPG 7120.5A the spare parts procedures discussed in Recommendation 3.

Management's Response. Concur. The NASA Chief Engineer will reference the NASA
FAR Supplement update in the next NPG 7120.5A revision.

Evaluation of Response. Management's comment and planned action are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective action is completed.




                                           6
Finding B. Accounting for Spare Parts Costs
Boeing did not include contractor fee and indirect costs in the value of the spare parts
recorded on the receiving reports it submitted to NASA. This occurred because Boeing's
accounting system was inadequate to determine the total unit costs of Government property16
as required by Federal Financial Accounting Standards and by the NASA FAR Supplement.
As a result, the Agency's annual financial statements from Program inception (FY 1995)
through FY 2000 cumulatively understated the value of ISS spare parts by about
$39 million.17

Requirements to Record Unit Acquisition Costs

Federal Financial Accounting Standards Guidance. Federal Financial Accounting
Standards Number 6, "Accounting for Property, Plant, and Equipment (PP&E)," 18 effective
June 1996, contains accounting standards for Federally owned PP&E. The accounting
standards require that PP&E be recorded at cost. That cost shall include all costs to bring the
PP&E to a form and location suitable for their intended use.

NASA Guidance. For NASA property, NASA FAR Supplement 1845.7101-3, "Unit
Acquisition Cost," requires the unit value (called the unit acquisition cost) to include related
fees, or a pro rata portion of fees, paid by NASA to the contractor and indirect production
costs (see Appendix C).

Inclusion of All Applicable Costs in Spare Parts Values

Boeing documents delivery of spare parts to NASA on Department of Defense DD Form 250,
"Material Inspection and Receiving Report" (receiving report). On each receiving report,
Boeing records a value for each spare part and uses the values from the receiving reports to
prepare official property records and NASA Form 1018, "NASA Property in the Custody of
Contractors." The Agency uses Form 1018 as the primary documentation in establishing the
value of ISS property in its annual financial statements.

Boeing judgmentally estimated the unit values for ISS spare parts made at its production
facilities and used vendor invoices to value spare parts made by Boeing subcontractors.
However, Boeing did not allocate indirect costs and applicable fee to the unit values of spare
parts recorded on the DD Forms 250 and in the official property records. NASA adjusted its
official property records for FY's 1998 through 2000 by adding fees to the property values
reported for special test equipment, special tooling, Agency-peculiar equipment, and contract
work-in-process.19 However, NASA could not determine the amount of fee that applied to

16
   Boeing also excluded fee and indirect costs in determining the value of ISS flight hardware.
17
   We could not determine the amount of the understatement for each fiscal year because only cumulative totals
through FY 2000 were available for our use.
18
   The Federal Financial Accounting Standards define PP&E as tangible assets that have an estimated life of 2 or
more years, are not intended for sale in the ordinary course of business, and are intended to be used or available
for use by the entity.
19
   Except for contract work-in-process, the Agency adjusted the three categories for property valued at
$100,000 or more.
                                                         7
ISS spare parts. Because of Boeing’s omissions in the values for spare parts, NASA
understated by about $39 million the aggregate spare parts values it reported in the Agency's
financial statements from FY’s 1995 through 2000. The $39 million represented about
$27.6 million in fees and about $11.4 million in indirect costs that NASA paid to Boeing on
the total cost of spare parts through FY 2000.

DCAA Review of Contractor-Held Property

Arthur Andersen LLP, an independent certified public accounting firm, audited NASA’s
FY 2000 Financial Statements. At our request and in conjunction with NASA's FY 2000
Financial Statement audit,20 DCAA collected information on NASA property in the
possession of 10 major contractors, including Boeing. Regarding Boeing, DCAA reported in
January 2001 that the contractor did not consistently value Government property in
accordance with generally accepted accounting principles and NASA FAR Supplement
1845.7101-3.21 In particular, Boeing had not included shipping and other material handling
costs (indirect costs) when determining the unit cost for Government property. Also, Boeing
had not accumulated actual costs for fabricated assets. Therefore, the asset value that Boeing
reported to NASA each time Boeing delivered a fabricated asset was based on estimated
costs. Further, DCAA reported that, due to shortcomings in Boeing's accounting system and
property records,22 the associated costs such as engineering, testing, analysis, overhead, and
fee were not readily available to determine the total unit acquisition cost.

Independent Audit of NASA's FY 2000 Financial Statements

In its February 6, 2001 audit report, Arthur Andersen issued an unqualified opinion on
NASA’s financial statements (see Appendix D). Arthur Andersen found no material
weaknesses23 in internal controls and no reportable conditions24 of noncompliance with the
laws and regulations it tested. However, the public accountant identified one reportable
condition involving controls over contractor-held property reporting. That is, DCAA, in
conjunction with the Arthur Andersen audit, found internal control deficiencies regarding
contractor-held property accounting procedures at Boeing’s sites at Canoga Park, California;
Huntington Beach, California; and Huntsville, Alabama.


20
   We asked DCAA to collect information on NASA property in the possession of contractors to assist the
Agency and Arthur Andersen in assessing the accuracy of contractor-held property as recorded in the financial
records and to evaluate certain internal controls related to such property.
21
   DCAA issued Report No. 3521-2001B17800904, "Report on Application of Agreed-Upon Procedures,
Government Property in the Possession of NASA Contractors," in January 2001 (see Appendix D).
22
   DCAA found that Boeing's policies and procedures lacked sufficient detail and specificity with respect to
establishing unit acquisition costs for Government property.
23
   A material weakness is a reportable condition in which the design or operation of one or more internal control
structure elements does not reduce to a relatively low level the risk that errors or irregularities in amounts that
would be material in relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.
24
   A reportable condition is a matter that, in the auditor's judgment, should be communicated because it
represents a significant deficiency in the design or operation of internal control that could adversely affect the
organization's ability to meet internal control objectives of reliable financial reporting, compliance with laws and
regulations, and reliable performance reporting.
                                                            8
Recommendations by DCAA and Arthur Andersen. To resolve the internal control
deficiencies regarding contractor-held property reporting that were disclosed during the
NASA FY 2000 Financial Statements audit, Arthur Andersen made several recommendations
to NASA, and DCAA made a recommendation to Boeing. Specifically, in a February 2001
management letter, Arthur Andersen recommended that NASA perform a comprehensive
assessment of policies and procedures maintained and followed by contractors to ensure the
policies and procedures are in accordance with the NASA FAR Supplement. When they are
not in compliance with the NASA FAR Supplement and generally accepted accounting
principles, NASA should reach a conclusion and document its acceptance of these deviations.
Arthur Andersen also recommended that NASA perform periodic reviews of amounts
reported on NASA Forms 1018 using consistent review criteria to ensure that Boeing is
following policies and procedures. Additionally, in July 2001, DCAA recommended that
Boeing production sites revise policies to specifically include all the costs described in NASA
FAR Supplement 1845.7101-3 when determining the unit acquisition cost of Government
property. NASA agreed with all the recommendations and is taking action to resolve
deficiencies regarding contractor-held property reporting, such as providing training on
NASA Form 1018 reporting to contractors at NASA Centers. Pricewaterhouse Coopers LLP,
an independent certified public accounting firm, performed NASA’s FY 2001 financial
statement audit and reviewed the corrective actions taken by NASA with the assistance of
DCAA.25 Pricewaterhouse Coopers LLP determined that the FY 2000 financial statement
audit recommendation on the reporting of contractor-held Government property was still open
as of March 2002. Therefore, we are making the recommendation below for ISS spare parts.

Recommendation, Management's Response, and Evaluation of Response
5. The Acting Director, Lyndon B. Johnson Space Center, should ensure Boeing
includes fee and indirect costs in the value of ISS spare parts recorded on the receiving
reports submitted to NASA, as required by NASA FAR Supplement 1845.7101-3.

Management's Response. Concur. Johnson directed Boeing to include total costs and fee in
the spare parts value recorded on receiving reports submitted to NASA. Johnson is reviewing
the property records to ensure total costs are reflected.

Evaluation of Response. Management's comments are responsive to the recommendation.
The recommendation is resolved but will remain undispositioned and open until the agreed-to
corrective actions are completed.




25
 DCAA reviewed the records at three prime contractors (Boeing, Lockheed Martin, and United Space Alliance)
and two subcontractors (Boeing-Huntington Beach, and Honeywell).
                                                    9
                Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to determine whether NASA properly acquired and accounted for
International Space Station (ISS) spare parts. Specifically, we determined whether NASA
appropriately justified and approved the acquisition of ISS spare parts through
noncompetitive contract modifications, paid a fair and reasonable price for ISS spare parts,
and adequately supported the value of the spare parts inventory that the Agency reports in its
annual financial statements.

Scope and Methodology

To satisfy our objectives, we reviewed the portions of the ISS contract (NAS15-10000)
pertaining to spare parts acquisition. We interviewed personnel from NASA, Blackhawk
Corporation (NASA's support contractor), and The Boeing Company regarding procedures for
budgeting, acquiring, accounting for, and valuing spare parts. We reviewed applicable
regulations including the NASA Management Instruction, Federal Acquisition Regulation
(FAR), and NASA FAR Supplement regarding contracting and property accountability of
spare parts as well as Federal law regarding reporting of spare parts in NASA’s financial
statements. We reviewed Department of Defense DD Forms 250 on spare parts Boeing
delivered to NASA to determine the basis for spare parts values in NASA’s property records
and financial statements. Also, we determined the extent to which NASA made repetitive
purchases. We did not assess the reliability of computer-processed data because we did not
rely on it to achieve our objectives.

Management Controls Reviewed

We reviewed management controls relative to the acquisition of and accounting for ISS spare
parts and property accountability and reporting in the NASA financial statements. We
determined that management controls needed to be strengthened to ensure that NASA
complies with applicable policies and procedures on acquiring and accounting for spare parts
(see Findings A and B).

Audit Field Work

We performed the audit field work from January through June 2001 at the Lyndon B. Johnson
Space Center. We performed the audit in accordance with generally accepted government
auditing standards.

Summary of Prior Audits and Reviews

The Defense Contract Audit Agency and NASA's independent certified public accounting
firm issued audit reports related to Boeing's accounting for Government property. The reports
are summarized in Appendix D of this report.


                                              10
                  Appendix B. International Space Station Contract

Brief Description of the Statement of Work. The Statement of Work for the International
Space Station (ISS) contract describes The Boeing Company’s (Boeing's) requirements for the
design, development, manufacture, integration, test, verification, and delivery to NASA of the
U.S. On-Orbit Segment26 of the ISS, including ground support equipment and for support for
ground and orbital operations. The Statement of Work also requires that Boeing provide
technical support and data for NASA's operation and utilization of the ISS and describes
Boeing’s requirements to integrate the complete ISS System.

Date Awarded and Price. NASA awarded the ISS contract (NAS15-10000) on
January 13, 1995, for a total value of $5.638 billion. As of February 2002, the contract value
was $10.8 billion.

Major Modifications. On December 21, 1999, the ISS contract was restructured. The
purpose of this restructuring was to definitize adjustments to the estimated costs and fees,
change the contract type, and effect other contract actions. Boeing and the ISS Program
Office agreed that the modification provided a full equitable adjustment for all issues that
were identified or known prior to October 1, 1999.27 Modification 1114, dated February 7,
2002, added $934 million to the contract value and extended the station integration and
operations work through the current period of performance, December 31, 2003.28

Contract Type. The ISS contract initially was a cost-plus-award fee/incentive fee/fixed fee
contract. When the contract was restructured, the fee structure was changed to a cost-plus-
award fee/fixed fee contract.

Estimated Completion Date. The ISS contract states that all work required under the
contract shall be completed on or before December 31, 2003. Currently, the final On-Orbit
Award Fee evaluation period is scheduled for 3 months after Flight No. UF5.29 The ISS
Assembly Sequence, Revision F, June 2001, identifies the launch date for Flight No. UF5 as
February 2005.




26
   The U.S. On-Orbit Segment is an Earth-orbiting facility that houses experiment payloads, distributes resource
utilities, and supports permanent human habitation for conducting research and science experiments in a
microgravity environment.
27
   Office of Inspector General Report Number IG-02-002, "Restructuring of the International Space Station
Contract," November 8, 2001, further discusses the modification.
28
   This work has been planned and is contained in the budget estimates represented in the FY 2003 President’s
budget.
29
   Flight No. UF5 provides for experiment delivery, resupply, and exchange for the ISS. Elements contained on
the flight include a multipurpose logistics module, which carries inside experiment equipment racks, and an
express pallet, which carries external experiment equipment.


                                                       11
Appendix B

Contractor. The prime contractor for the ISS is Boeing. Boeing has four development sites
at Huntsville, Alabama; Canoga Park, California; Huntington Beach, California; and Houston,
Texas.

Costs Incurred to Date. As of February 2002, NASA had disbursed $9.787 billion on the
ISS contract.

Cost and Schedule Performance. Boeing’s Performance Measurement System Report,
January 2002, indicates that since contract inception, Boeing has declared $1.1 billion in cost
overruns. NASA estimated that the overrun will be $1.2 billion.




                                               12
                  Appendix C. Procurement Requirements
Federal Acquisition Regulation (FAR) 15.402, "Pricing Policy"

             Contracting officers must (a) purchase supplies and services from
             responsible sources at fair and reasonable prices.

NASA FAR Supplement 1845.7101-3, "Unit Acquisition Cost"

             (a) The unit acquisition cost shall include all costs incurred to bring the
                 property to a form and location suitable for its intended use. For
                 example, the cost shall include the following, as appropriate:
                 (1)   Amounts paid to vendors or other contractors.
                 (2)   Transportation charges to the point of initial use.
                 (3)   Handling and storage charges.
                 (4)   Labor and other direct or indirect production costs (for assets
                       produced or constructed).
                 (5)   Engineering, architectural, and other outside services for
                       designs, plans, specifications, and surveys.
                 (6)   Acquisition and preparation costs of buildings and other
                       facilities.
                 (7)   An appropriate share of the cost of the equipment and
                       facilities used in construction work.
                 (8)   Fixed equipment and related installation costs required for
                       activities in a building or facility.
                 (9)   Direct costs of inspection, supervision, and administration of
                       construction contracts and construction work.
                (10)   Legal and recording fees and damage claims.
                (11)   Fair values of facilities and equipment donated to the
                       Government.
                (12)   Material amounts of interest costs paid.

             (b) Acquisition cost shall include, where appropriate, for contractor
                 acquired Special Test Equipment, Special Tooling, Agency-
                 Peculiar Property and Contract Work-In-Process, related fees, or a
                 pro rata portion of fees, paid by NASA to the contractor.
                 Situations where inclusion of fees in the acquisition cost would be
                 appropriate are those in which the contractor designs, develops,
                 fabricates or purchases property for NASA and part of the fees
                 paid to the contractor by NASA are related to that effort.

              (d) The contractors shall report unit acquisition costs using records
                  that are part of the prescribed property or financial control system
                  as provided in this section. Fabrication costs shall be based on
                  approved systems or procedures and include all direct and indirect
                  costs of fabrication.




                                                 13
Appendix C

NASA Management Instruction (NMI) 5900.1B, "NASA Spare Parts Acquisition
Policy"

This instruction established a uniform policy for the acquisition and provisioning of
NASA spare parts:

               It is NASA policy to support its nonexpendable major systems by
               applying sound management and engineering judgment to selecting and
               acquiring spare parts in the quantities and at the lowest fair and
               reasonable cost, consistent with the program being supported.
               Breakout and competitive procurement, particularly of replenishment
               spares, are encouraged to the maximum extent practicable.

Paragraph 6(a), “Initial Provisioning,” states:

               (1) Initial provisioning shall be accomplished during full-scale
                   development of a major system. The contractor is required to:

                   (a) Develop a list of proposed spare parts and related quantities
                       needed to support the major system during the initial
                       provisioning period. The list should provide the basis for an
                       assessment of the potential for breakout and competition.
                       There must be for each item a unit price, an identification of
                       the original equipment manufacturer (OEM), and a listing of
                       the OEM’s most recent selling price to the next higher tier
                       contractor.

                   (b) Submit to NASA the list developed in subparagraph (a) and
                       participate in an initial provisioning conference in which
                       NASA evaluates the contractor’s recommendations and the
                       data upon which they are based and makes initial purchase
                       and inventory-stocking decisions.

               (2) The contractor makes recommendations only. The decisions (a) to
                   purchase or not purchase an individual item suggested by the
                   contractor as a spare part and (b) on the quantity of each item to be
                   purchased are made solely by NASA. Program managers shall
                   ensure that spares’ recommendations are processed and purchase
                   decisions made in a timely manner in order to minimize
                   procurement costs and have needed spare parts available prior to
                   the first predicted usage of the system.

               (3) Program managers are responsible for assuring, as part of the
                   initial provisioning process, that parts are screened for availability
                   from Government sources and obtained from those sources if
                   available at a lower cost than other alternatives, providing that
                   traceability standards can be maintained. To the maximum extent




                                                  14
                                                                                             Appendix C

                   practicable, spares should be purchased directly from the actual
                   manufacturer, i.e., lowest-tier subcontractor, to eliminate the layers
                   of support costs at each tier. Purchase requirements should be
                   consolidated upon completion of NASA decisions on the
                   contractor’s provisioning recommendations, and efforts should be
                   made to identify and consolidate common hardware used in
                   various elements of the program.

Paragraph 6(b), “Initial Provisioning Period,” states:

               (1) The basic contract should define an initial provisioning period.
                   This period generally should cover test and evaluation, plus a short
                   period of operation, so that sufficient operational experience can
                   be gained with the system to provide a basis for fully competitive
                   acquisition of spare parts.

               (2) To provide a vehicle for ordering spare parts during this period, the
                    contract shall include a separate line item, with a ceiling or not-to-
                    exceed amount, obligating the contractor to provide any parts
                    identified during initial provisioning and ordered by the
                    Government. Unless otherwise justified, prices shall be negotiated
                    before the contractor begins work on an individual order. If
                    possible, each order should be on a firm fixed-price basis with
                    individual items separately priced (see paragraph f(1)). As
                    experience is gained with the operational system, the items
                    selected as spare parts and the quantities needed may change.
                    Individual item pricing will facilitate making those changes and
                    provide a pricing history for later purchases.

               (3) Early in the initial provisioning period, NASA typically orders
                   spare parts exclusively from the major systems contractor. As
                   experience is gained, however, opportunities to breakout items for
                   competitive acquisition will become apparent. Before ordering
                   spare parts under the major systems contract, therefore, the
                   contracting officer should examine the alternate sources that may
                   be available.
Paragraph 6(f), “Pricing,” states:

               (1) Each purchase of spare parts must meet the criterion of a fair and
                   reasonable price.      Several different methodologies are used by
                   contractors to price spare parts. Certain of these can result in
                   unrealistic and unreasonable prices for individual items even
                   though the total cost of a particular spare parts order is reasonable;
                   e.g., distribution of overhead costs by prorating the costs equally
                   to each line item of the order without regard to the cost of the
                   items involved. The concept of value added can help avoid this
                   pitfall. NASA personnel are cautioned, when selecting




                                                   15
Appendix C

                 and pricing spare parts, to use a value-based method of distributing
                 costs to individual items of a spare parts order; i.e., ensure that unit
                 prices are in proportion to an item’s base cost (e.g., manufacturing
                 or acquisition cost).

             (2) The Federal Acquisition Regulation (FAR), at 48 CFR
                 15.812-1(a), specifically prohibits any method of distributing costs
                 to line items that distorts the unit prices. The FAR also
                 incorporates a contract clause of 48 CFR 52.215-26, Integrity of
                 Unit Prices, that requires contractors, in certain circumstances, to
                 identify items that they will not manufacture or to which they will
                 not contribute significant value. Value added includes such items
                 as required quality assurance, calibration, and configuration
                 management; other activities, such as sustaining engineering,
                 provisioning, and cleaning, should be separately priced. Programs
                 managers should use this information to determine when price
                 distortions have occurred through overhead applications and what
                 resources to apply to breakout of the items. To assist in making
                 these determinations, percentage-price-increase standards may be
                 established for the program; e.g., item price increases of X percent
                 over the original purchase price must be justified to and approved
                 by the program manager.

             (3) If spare parts management and support are contracted out, special
                 care shall be taken by NASA personnel in pricing. In such
                 situations, human resources associated with the acquisition of
                 spares (sustaining engineering, procurement support, logistics, and
                 so forth) and related overhead may be priced separately from the
                 cost of the spare parts to the support contractor. If so, overhead,
                 general and administrative expense, and fee charged directly
                 against the spare parts prices shall be limited and checked for
                 duplication to the maximum extent. Particular attention shall be
                 given to proposed overhead charges and whether the costs
                 included therein are for value added and are incurred in specific
                 support of the spare parts purchase.




                                                 16
                  Appendix D. Prior Audits and Other Reviews

Defense Contract Audit Agency Report

Report No. 3521-2001B17800904, “Report on Application of Agreed-Upon
Procedures, Government Property in the Possession of NASA Contractors,”
January 5, 2001.

The Defense Contract Audit Agency (DCAA) evaluated The Boeing Company’s
practices for determining unit acquisition costs for NASA property additions for the
period October 1, 1999, through September 30, 2000, on contract number NAS15-10000.
DCAA reported that the contractor did not consistently value Government property in
accordance with generally accepted accounting principles and NASA Federal Acquisition
Regulation (FAR) Supplement 1845.7101-3. The evaluation determined that the
contractor utilized purchase orders and invoices for contractor-acquired property,
DD Forms 114930 for Government-furnished property, and estimates for fabricated
property to determine acquisition cost. Boeing had not included shipping and other
material handling costs (indirect costs) when determining the unit cost for Government
property. Also, Boeing had not accumulated actual costs for fabricated assets at a
sufficient level of detail necessary to determine actual costs. Therefore, the asset value
that Boeing reported for fabricated assets was based on estimated costs. Additionally,
due to Boeing's accounting system shortcoming, the associated costs (such as
engineering, testing, analysis, and overhead) and fee were not readily available to
determine the total unit acquisition cost. DCAA concluded that Boeing's accounting
system and property records did not provide sufficient information and data to determine
the unit acquisition costs for Government property. In July 2001, DCAA sent letters to
Boeing production sites recommending that they revise their policies to specifically
include all the costs described in NASA FAR Supplement 1845.7101-3 when
determining the unit acquisition cost of Government property.

Arthur Andersen LLP, An Independent Certified Public Accounting Firm

NASA's FY 2000 Financial Statement Audit, February 6, 2001

Arthur Andersen audited the NASA FY 2000 Financial Statements and issued an
unqualified opinion. Arthur Andersen found no material weaknesses in internal controls
and no reportable conditions of noncompliance with the laws and regulations it tested.
However, the independent public accountant identified one reportable condition
involving controls over contractor-held property reporting. Specifically, Arthur
Andersen stated that as part of the 10 major contractor sites visited, DCAA, in
conjunction with the financial statement audit, found internal control deficiencies
regarding contractor-held


30
  DD Form 1149, “Requisition and Invoice/Shipping Document,” is a Department of Defense form used by
the Federal Government to transfer property on loan.


                                                17
Appendix D

property accounting procedures at Boeing’s sites at Canoga Park, California; Huntington
Beach, California; and Huntsville, Alabama. In its Report of Independent Public
Accountants on Internal Control, Arthur Anderson stated that NASA's internal controls
for the reporting of contractor-held property required improvement to ensure that
contractor-held property is reported in accordance with NASA and Federal accounting
requirements. Specifically, NASA should enhance existing procedures designed to
educate contractor personnel and NASA property administrators on property accounting
and reporting requirements. Further, Arthur Andersen recommended that NASA perform
a comprehensive assessment of policies and procedures maintained and followed by
contractors to ensure they are in accordance with the NASA FAR Supplement. When
contractor policies and procedures are not in compliance with the NASA FAR
Supplement and generally accepted accounting principles, NASA should reach a
conclusion and document the acceptance of these deviations. NASA should also perform
periodic reviews of amounts reported on NASA Forms 101831 using consistent review
criteria to ensure that its contractors perform contractor-held property reporting in
accordance with NASA FAR Supplement requirements.




31
  The Agency uses NASA Form 1018, "NASA Property in the Custody of Contractors," as the primary
documentation in establishing the value of International Space Station property in NASA’s annual
financial statements.




                                                18
Appendix E. Management’s Response




               19
                  Appendix E




See Appendix F,
OIG Comment 1




See Appendix F,
OIG Comment 2




                               20
     Appendix E




     See Appendix F,
     OIG Comment 3




     See Appendix F,
     OIG Comment 1




21
Appendix E




             22
     Appendix E




23
Appendix E




             24
         Appendix F. OIG Comments on Management’s Response

The Johnson Space Center (Johnson) provided the following comments in its response to
our draft report. Our responses to the comments are also presented.

Management Comments. NASA does not agree that the approach for ISS spare parts
procurements through FY 2000 resulted in the Government paying unfair or unreasonable
prices.

1. OIG Comments. We have reworded the finding to state that Johnson had no
assurance that the prices it paid to Boeing were fair and reasonable.

Management Comments. NASA Management Instruction (NMI) 5900.1B does not
require contractors to track and report individual spare parts prices.

2. OIG Comments. We agree that NMI 5900.1B does not explicitly state that
contractors should track and report individual spare parts prices. However, the NMI
states that, if possible, each order of spare parts should be on a firm fixed-price basis with
individual items separately priced to provide a pricing history for later purchases.
Therefore, The Boeing Company should track and report individual spare parts prices so
that NASA can develop pricing histories.

Management Comments. Change order accounting is not an effective method of
achieving individual spare parts pricing because it applies only through the provisioning
item order definitization period (about 6 months or less) and would be too costly.

3. OIG Comments. We acknowledge that change order accounting may not be an
appropriate method of achieving individual spare parts pricing and, accordingly, we have
deleted all references to it.




                                             25
                       Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AB/Associate Deputy Administrator for Institutions
AE/Chief Engineer
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight


NASA Centers

Acting Director, Lyndon B. Johnson Space Center
Director, Kennedy Space Center
 Chief Counsel, Kennedy Space Center
Director, Marshall Space Flight Center


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space




                                          26
                                                                     Appendix G

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics


Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         27
                    NASA Assistant Inspector General for Audits
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.

Report Title: International Space Station Spare Parts Costs

Report Number:                                         Report Date:

             Circle the appropriate rating for the following statements.
                                                      Strongly                                Strongly
                                                      Agree      Agree   Neutral   Disagree   Disagree   N/A


1.   The report was clear, readable, and logically       5         4       3          2          1       N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

!     Excellent         !    Fair

!     Very Good         !    Poor

!     Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   !   Congressional Staff                 !    Media
   !   NASA Employee                       !    Public Interest
   !   Private Citizen                     !    Other:
   !   Government:            Federal:             State:         Local:


May we contact you about your comments?

  Yes: ______                               No: ______

  Name:_______________________

  Telephone:_______________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Dennis E. Coldren, Program Director, Space Flight Audits

Kenneth Sidney, Auditor-in-Charge

Kathleen M. Kirby, Auditor

Nancy Cipolla, Report Process Manager

June Glisan, Program Assistant
